                           OFFICE OF THE INSPECTOR GENERAL
                           CORPORATION FOR NATIONAL AND
                                 COMMUNITY SERVICE




                              PREAUDIT SURVEY OF THE
                               VIRGINIA COMMISSION ON
                          NATIONAL AND COMMUNITY SERVICE

                                 OIG Audit Report Number 00- 18
                                      November 5, 1999




                                             Prepared by:

                                           KPMG LLP
                                        2001 M Street N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9G8V103




This report was issued to Corporation management on March 24, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than September 24, 2000 and complete its corrective actions by March 24,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                          CORPORATION

                                 Office of Inspector General                              FOR NATIONAL
                       Corporation for National and Community Service

                                Pre-Audit Survey of the
                  Virginia Commission on National and Community Service
                             OIG Audit Report Number 00-18

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn h d , and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

Under contract to OIG, KPMG LLP performed the pre-audit survey of the Virginia Commission on
National and Community Service. Their report, which follows, indicates that the Virginia
Commission has established eflective controls overpre-award andgrant selectionprocedures,fiscal
administration, monitoring of subgrantees, AmeriCorps Member activities and service hour
reporting, and the use of training and technical assistancefunds. We have reviewed the report and
work papers supporting its conclusions, and we agree with the findings and recommendations
presented.

                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, I)C 20525
                             Pre-Audit Survey of the Virginia Commission on
                                    National and Community Service
                                           Table of Contents



RESULTS IN BRIEF ......................................................................................................................
                                                                                                                                   1

BACKGROUND .............................................................................................................................
                                                                                                                                   2

OVERVIEW OF THE VIRGINIA COMMISSION ........................................................................2

OBJECTIVES. SCOPE. AND METHODOLOGY ........................................................................3

FPNDINGS AND RECOMMENDATIONS ................................................................................... 5

APPENDIX A. COMMISSION FUNDING: 1996-97 THROUGH 1998-99 ............................. A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................
                                                                                                                          B .1
            2001 M Street, N.W.
            Washington, DC 20036




November 5, 1999



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the Virginia Commission on National
and Community Service. The primary purpose of this survey was to provide a preliminary
assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open. competitive process to select national service
    subgrantees. However, we identified areas for improvement related to (1) the lack of
    documentation supporting communication to rejected applicants and (2) the signing of
    annual conflict of interest forms by all Commission members.

    The Commission has an adequate process in place for fiscal administration of grants.

    The Commission has controls in place to evaluate and monitor subgrantees. However, the
    Commission's monitoring procedures do not require documenting which Member timesheets
    and program expenses were reviewed during site visits.

    The Commission has adequate controls in place to provide reasonable assurance that training
    and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.




1111         KPMG LLP KPMG LLP a U S lhmited a b l l t y partnership, s
             a member of KPMG internattonal a SWISS assoclatian
Although few findings resulted from this pre-audit survey, the Commission's AmeriCorps grants
have never been tested as part of an Office of Management and Budget (OMB) Circular A-133
audit. Therefore, based on our preliminary assessment, we recommend the performance of a
limited scope audit at the Commission for program years 1995-96 through 1998-99.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions. nonprofit entities and tribes and temtories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide ArneriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Virginia Commission

The Virginia Commission on National and Community Service, located in Richmond, Virginia,
has received ArneriCorps grant funds fi-om the Corporation for National and Community Service
since program year 1994-95. It operates as part of the Virginia Department of Social Services.
The Commission currently has four full-time and two part-time staff consisting of an Executive
Director, two Program Officers, one Program Assistant, one Training and Development
Coordinator, and one Administrative Assistant.
As part of the Virginia Department of Social Services, the Commission is annually subject to
statewide OMB Circular A-133 audits. However, the Corporation grants have never been tested
as major programs.

The Commission provided us with the following information for the last three program years:

                                                                       Number of Sub-
                                                                      grantees Subject to
                             Total Corporation       Number of           A-133 Audit
        Program Year             Funding             Subgrantees        Requirements*




*   Determination is based solely on (1) dollar value of federal awards passed through the
    Commission for the program year and (2) the subgrantee's status as a part of a state or local
    government subject to annual OMB Circular A-133 audits. Remaining subgrantees could be
    subject to an OMB Circular A-1 33 audit if they received additional federal grant funds from
    other sources.

Appendix A contains more detailed information on funding received from the Corporation during
program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in place
at the Commission for administering its AmeriCorps grants and for monitoring the fiscal activity
of subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment o f

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
0   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
    Manual for Commission Executive Directors and Members, and other information to gain an
    understanding of legal, statutory and programmatic requirements;
m!!!
    revlewlng OMB C~rcularA- 133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99; and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

 As part of the procedures performed, we documented and tested internal controls in place at the
 Commission using inquiries, observations, and examination of a limited sample of source
 documents. Finally, we summarized the results of our work to develop the findings and
 recommendations presented in this report. We discussed all findings with Commission
 management during an exit conference on November 5, 1999.

 Our procedures were performed in accordance with Government Auditing Standards issued by
 the Comptroller General of the United States. We were not engaged to, and did not, perform an
 audit of any financial statements, and the procedures described above were not sufficient to
 express an opinion on the controls at the Commission or its compliance with applicable laws,
 regulations, contracts and grants. Accordingly, we do not express an opinion on any such
 financial statements or on the Commission's controls or compliance. Had we performed
 additional procedures, other matters might have come to our attention that would have been
 reported to you.

 We provided a draft of this report to the Commission and the Corporation. Neither the
 Commission nor the Corporation responded in writing to our findings and recommendations
 within the 30-day comment period.
mm
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding." The Commission has developed and implemented
various procedures to meet this responsibility. For example, the Commission advertises funding
availability through various media, including newspapers and newsletters. Application reviewers
use a standardized score sheet, which includes assessment of the applicant's financial systems
and organizational capacity, to evaluate each applicant, and their recommendations are
summarized into a standard form that is sent to the Commission members for final approval.
However, we identified the following areas for improvement within the selection process.

        Conflict of Interest Statements

According to A Reference Manual for Commission Executive Directors and Members, section
3.6, "State Commissions should strive to achieve the greatest objectivity and impartiality
possible in the review and selection of grantees in the state.. .Any time a voting Commission
member is not, or does not appear to be, for any reason, impartial to a program that is applying to
the Commission for funding, the member has a conflict of interest." One way to help ensure this
objectivity is to require selection officials to annually certify in writing that they have no
conflicts of interest.

Commission members make the final funding decisions in the selection process. Although the
Commission has policies and procedures in place requiring Commission members to annually
sign conflict of interest statements certifying that they have no conflicts, not all Commission
members sign these forms on an annual basis. If Commission members have conflicts of interest
but do not report them, the fairness of the selection process may be impaired.

        Communications with Rejected Applicants

For one of two rejected applicants tested, the Commission was unable to provide us with
documentation supporting the communication of the rejection to the applicant. As a result, if this
rejected applicant questions the reason for rejection, the Commission has no records to reference
to support the communication made.

        Recommendations

We recommend the Commission focus on measures for improving its subgrantee selection
process as follows:

    Enforce current policies and procedures requiring that all Commission members sign conflict
    of interest forms annually. The Commission should designate an employee to be responsible
    for ensuring that all conflict of interest forms are submitted timely each year.

    Enforce current policies and procedures requiring the maintenance of documentation
    supporting the communication to applicants of selection decisions.
Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Manual for Commission Executive Directors
and Members, section 4.3). The Commission has developed and implemented procedures to
administer grant funds received from the Corporation. Procedures are in place to withhold
funding payments if subgrantees do not submit Financial Status Reports (FSRs) timely, manage
cash draw downs and disbursements to subgrantees, and ascertain whether subgrantees have met
their matching requirements. The Commission's organizational structure appears adequate and
personnel appear to have adequate skills and experience to manage Corporation grant funds. We
identified no significant areas for improvement within this process as a result of the limited
procedures performed.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Commission has developed and implemented various procedures
to evaluate and monitor subgrantees. Annually, the Commission performs at least three site
visits for each subgrantee using a program review instrument (i.e., checklist) that addresses
subgrantee reporting, Member documentation, fina~cialcompliance, policies and procedures,
and program effectiveness. Commission personnel notify the subgrantees of the results of these
site visits, including strengths, challenges, recommendations, and any necessary follow-up
requirements. However, we identified the following areas for improvement related to the
evaluation and monitoring of subgrantees.

        Documentation of Subgrantees ' AmeriCorps Member Timesheets and Expense Items
        Examined during Site Visits

Although Commission personnel review the subgrantees' AmeriCorps Member timesheets and
expense documentation for proper support and approval during site visits, they do not document
on the program review instrument which Member timesheets and expense items were reviewed.
In addition, the sample sizes used and the rationale behind these samples are not documented.
As a result, a reviewer (e.g., supervisor) of the site visit documentation is not able to (1) assess if
the sample size selected was adequate and (2) review the same documentation if a question arose
about the results of the test.

        Follow-up on Deficiencies Noted at Subgrantees

The Commission does not communicate or follow-up on deficiencies discovered during site visits
timely and does not clearly document the results of such follow-up. As a result, subgrantees may
not correct identified deficiencies in a timely manner.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:
   Revise its current program review instrument to require documentation of (a) the
   subgrantees' Member timesheets and expense items reviewed during site visits and (b) the
   rationale behind the sample size selection. The Commission's program review instrument
   should be expanded to include space for such documentation.

   Enforce current policies and procedures to ensure timely communication of and follow-up on
   deficiencies identified during site visits and clear documentation of the results of this follow-
   UP.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its subgrantees.
Procedures are in place at the Commission to (1) identify training needs of subgrantees through
progress reports and site visits; (2) notify subgrantees of training programs; and (3) provide
needed training to subgrantees, which Commission staff also attend. We identified no significant
areas for improvement within this process as a result of the limited procedures performed.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Virginia Commission on National and Community Service, and the United States Congress and
is not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                              Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years. We were unable to agree the funding amounts to the Commission's
FSRs for (a) 1998-99 because the final FSR for the program year had not been completed at the
time of field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis.


         Fundine Source and T v ~ e                1996-97        1997-98          1998-99

         CNS Formula Grant Funds                  $1,507,723     $2,

         CNS PDAT Funds                               54,550

         CNS Administrative Funds                    146,347

         CNS Canyover Funds                          161,799

         State Matching Funds                        146,347           159,096       1 19,675

          Total Funding                           $2.016.766     $2,606.885       $2.502.975
                        Commission Funding                                         Appendix A




                 Corporation for National Service
                          Funding to the
                       Virginia Commission
                on National and Community Service
                              1996-97
                                                                      I
        I               I               I                          I
    Formula        Competitive      Learn and       PDAT           All Other
     Funds           Funds            Serve         Funds*          Funds*
                                     Funds
  $1,507,723           $0              $0           $141,777       $220,919
                                                               I




       v               v               v               v
                                                                   T
                                                                   *           1




      Total Corporation Funds Available to the Commission
                          $1,870,419

                                        .
                   Funds Awarded to Subgrantees
                           $1,507,723




                                    Formula
                                   Subgrantees
                                    $1,507,723
                                 # of subgrantees
                                         6
                                     # of sites




* Includes carryover amounts.
                        Commission Funding                                Appendix A




                 Corporation for National Service
                         Funding to the
                      Virginia Commission
               on National and Community Service
                             1997-98


   Formula
    Funds

 $2,106,365
                                     Funds
                                                   $130,832
                                                              1
                                                              All Other
                                                               Funds*




     Total Corporation Funds Available to the Commission
                         $2,447,789




                  Funds Awarded to Subgrantees
                          $2,106,365




                                    Formula
                                  Subgrantees
                                   $2,106,365
                                # of subgrantees
                                        7
                                    # of sites




* Includes carryover amounts.
                          Commission Funding                                    Appendix A




                    Corporation for National Service
                             Funding to the
                          Virginia Commission .
                   on National and Community Service
                                 1998-99
I                                                                           I
         I
               -                                        I
II   Formula
      Funds
                     Competitive
                       Funds
                                      Learn and
                                        Serve
                                                      PDAT
                                                      Funds*
                                                                All Other
                                                                 Funds*
                                       Funds
                         $0              $0           $98,000   $234,507
I                   -
        v                v                v             v          v

      Total Corporation Funds Available to the Commission
                          $2,383,300




                     Funds Awarded to Subgrantees




                                       Formula
                                     Subgrantees
                                      $2,050,793
                                   # of subgrantees
                                           7
                                       # of sites
                                          38




* Includes carryover amounts.
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; subrecipient monitoring; and reporting by the Commission to
the Corporation. We then interviewed key Commission personnel to assess the Commission's
controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms were signed by application reviewers and Commission
members annually and maintained by the Commission.

Administering the Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission has implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to implement a comprehensive, non-duplicative evaluation and monitoring
    process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission rece!ved and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
